                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-MERO-13-25                                   Office of Audits                                       March 2013




     Audit of Bureau of Diplomatic Security
    Worldwide Protective Services Contract –
     Task Order 5 for Baghdad Movement
                   Security




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                     UNCLASSIFIED




                                                            Unite<1 States Departmcnt of State
                                                            and the Broadcasting Board of Govcrnors

                                                            OffICe of Ili spector Gel/em l




                                          PREfACE


     This report was prepared by the Office of Inspector General (O[G) pursuant to the Inspector
General Act of 1978. as amended. and Section 209 oflhe Foreign Servico:: Acl of 1980, as
amended. [I is one of a series of audit, inspection, investigative, and spcci81 reports prepared by
DIG periodically as part of its responsibility to promote effective m8nagemcnl, accountability
and positive change in the Dep8rtment ufSlate and thc Hroadcasting Board of Governors.

     This ro::port is the result of an assessment of the strengths and weaknesses uf the office, post,
or function under review. It is b8scd on interviews with employees and officials of relevant
agem;ies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein havc been llt:veloped on the basis of tho:: bo::st knowledge
available to the DIG and, as appropriate, have been discussed in droft wilh those responsible for
implementation. It is my hope thatthcse recommend8tions will result in more effective,
efficient, 8ndlOT economical operations.

     I express my appreciation to all of those who contributed 10 the preparation of this report.




                                             Harold W. Gcisel
                                             Deputy Inspector General




                                     UNCLASSIFIED
                              UNCLASSIFIED


Acronyms
A/LM/AQM      Bureau of Administration, Office of Logistics Management, Office of
               Acquisitions Management
COR           contracting officer’s representative
DS            Bureau of Diplomatic Security
DS/OPO/ HTP   Bureau of Diplomatic Security, Office of Overseas Protective Operations,
               High Threat Protection Division
FAH           Foreign Affairs Handbook
FAM           Foreign Affairs Manual
GTM           government technical monitor
INL           Bureau of International Narcotics and Law Enforcement Affairs
OIG           Office of Inspector General
PSS           protective security specialist
WPS           Worldwide Protective Services




                              UNCLASSIFIED
                                                           UNCLASSIFIED


                                                        Table of Contents
Section                                                                                                                                   Page

Executive Summary .........................................................................................................................1

Background ......................................................................................................................................4

Audit Objective ................................................................................................................................6

Audit Results....................................................................................................................................7

           Finding A. Base Year Contractor Staffing Requirements Exceeded Movement Security
                      Needs..................................................................................................................7
           Finding B. The Department Approved and Paid Invoices Containing Unallowable,
                      Unsupported, and Erroneous Costs ..................................................................13

List of Recommendations ............................................................................................................. 18

Appendices
      A. Scope and Methodology................................................................................................19
      B. Personnel Staffing for the Embassy Program, the Airport Option Program, and the
         INL-Iraq Program ..........................................................................................................23
      C. Bureau of Administration, Office of Logistics Management, Office of Acquisitions
         Management Response ................................................................................................. 25
      D. Bureau of Diplomatic Security Response ....................................................................27

Major Contributors to This Report ................................................................................................34




                                                           UNCLASSIFIED
                                               UNCLASSIFIED


                                           Executive Summary
        The Worldwide Protective Services (WPS) contract provides movement security,
specialized emergency services, and guard services for diplomatic missions in high threat areas.1
Awarded in September 2010, the WPS contract consolidated the requirements of the Department
of State’s (Department) previous Worldwide Personal Protective Security contract and individual
local guard force contracts for U.S. Embassies Baghdad and Kabul. The Department awarded
the WPS contract, Task Order 5, to Triple Canopy, Inc., in February 2011 to provide movement
security in Baghdad, Iraq. Under the task order terms, Triple Canopy, Inc., is required to provide
movement security for three separate programs: the Embassy Protective Program (Embassy
program), the Airport Shuttle Run Protective Team Option (Airport option program), and the
Bureau of International Narcotics and Law Enforcement Affairs (INL)-Iraq Protective Program
(INL-Iraq program).

      The Office of Inspector General (OIG) initiated this audit at the request of the Bureau of
Diplomatic Security (DS) and under the authority of the Inspector General Act of 1978, as
amended, to determine the effectiveness of the Department’s management and oversight of the
WPS contract, Task Order 5. The audit objective was to determine whether

            the contractor’s work was adequately monitored,

            the contractor was performing in accordance with contract terms and conditions, and

            invoice review and approval procedures were in place to ensure accuracy and
             completeness of costs.

        OIG determined that the contractor staffing requirements for WPS Task Order 5
exceeded the staffing needs for the Baghdad movement security missions. Specifically, of the
513 movement security personnel provided by the contractor, only 2532 were used, on average,
to conduct daily movement missions. The overstaffing occurred because DS did not conduct a
needs analysis for staffing requirements prior to awarding the task order, and DS and the Bureau
of Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), unnecessarily exercised the Airport option program, which added 84 movement
security personnel to the task order. Further, although DS was ensuring that Triple Canopy, Inc.,
generally complied with the contract terms and conditions, DS did not review the contractor’s
daily movement detail reports or adequately review the contractor’s muster sheets3 to assess the


1
  The Department defines high threat areas as countries with high to critical levels of political violence and
terrorism, governments of weak capacity, and security platforms that are well below established standards.
2
  These numbers do not include the INL-Iraq program personnel. In addition, the movement security personnel
include only the protective service positions responsible for actually conducting movement security missions and do
not include other management or administrative positions.
3
  Muster sheets are WPS contract-required deliverables that report contractor’s staffing for labor billing. Muster
sheets contain names, labor category, days worked, rest and recuperation, and other daily presence statuses for
contractor staff. The contractor is required to submit monthly muster sheets signed by the regional security officer,

                                                          1

                                               UNCLASSIFIED
                                                UNCLASSIFIED

actual number of security personnel being utilized against the staffing level. As a result, the
Department paid, at a minimum, $20.6 million during the base year to retain 84 unnecessary
contractor security personnel for the Airport option program. In addition, the Department paid
approximately $111.8 million for 429 Embassy program security personnel, excluding the
Airport option personnel. OIG determined that even without the additional 84 Airport option
personnel, the Department still utilized only about 253 (59 percent) of the 429 movement
security personnel provided by the contractor. However, OIG was unable to determine the
specific portion of the $111.8 million that was overpaid because DS could not provide a
methodology for determining the level of security staff needed on the ground. The Department
could have used the $20.6 million and any of the $111.8 million unnecessarily paid to address
other security needs.

        During the audit, OIG briefed DS on the preliminary audit results. Based on those
briefings, and in conjunction with the Department’s efforts to reduce the overall staffing of U.S.
Mission-Iraq,4 DS issued a notice to proceed to de-scope the task order by 273 personnel in
August 2012. Specifically, DS reduced the total staffing, including the management, support,
and movement security personnel, to 530 for the Embassy program, to none for the Airport
option program, and to 83 for the INL-Iraq program. OIG commends DS for taking this action,
since these reductions should save the Department about $362 million over the contract lifecycle.
However, the de-scoping effort was not based on a valid staffing needs analysis. This analysis
should be completed and further reductions taken if necessary.

       In addition, OIG determined that the contracting officer’s representative (COR) approved
27 contractor invoices, totaling about $1,775,727, that included unallowable, unsupported, or
erroneous costs. The invoices were approved because the COR was not adequately verifying
contractor invoices against supporting documentation or verifying that contract goods and
services had been received. As a result, the Department paid the contractor at least $117,030 in
unallowable costs and made $16,160 in erroneous payments.

        OIG recommended that DS and A/LM/AQM establish a process to ensure that a
needs-based analysis is conducted and documented prior to establishing staffing requirements for
all WPS task orders and exercising task order options. OIG also recommended that DS and the
Regional Security Office in Embassy Baghdad establish a process to ensure that the contractor’s
daily movement detail reports and muster sheets are reviewed to monitor actual staff usage
against the number of staff the Department paid. In addition, OIG recommended that DS and
A/LM/AQM institute procedures to ensure that staffing levels are adjusted when needs change
during the contract performance period. Further, OIG recommended A/LM/AQM ensure that
invoices are sent to CORs or government technical monitors (GTM) in Embassy Baghdad for
review to verify that the contractor is invoicing for only goods received and services delivered.
OIG recommended that DS perform a comprehensive review of its payment management
standard operating procedure as it relates to invoice review to ensure sufficient review of all
________________________
the deputy regional security officer, or the designee responsible for the location, along with the applicable invoice
for payment.
4
  On March 15, 2012, the Department issued guidance requiring personnel reductions and site closings for
U.S. Mission Iraq, which included security contractor staffing.

                                                           2

                                                UNCLASSIFIED
                                       UNCLASSIFIED

invoices and supporting documentation. OIG also recommended that A/LM/AQM recover the
$133,190 paid to the contractor for unallowable and erroneously approved costs, and direct the
contracting officer to conduct a comprehensive review of all contractor invoices and supporting
documentation to determine whether the contractor submitted adequate supporting
documentation for all reimbursable costs, including the $1,642,537 identified.

        In their responses to the draft report, A/LM/AQM (See Appendix C) and DS (See
Appendix D) concurred with the seven recommendations and provided planned actions to
implement the recommendations. OIG considers all seven recommendations resolved, pending
further actions.




                                               3

                                       UNCLASSIFIED
                                               UNCLASSIFIED


                                                 Background
        The WPS contract provides the Department with movement security, specialized
emergency services, and guard services for diplomatic missions in high threat areas. Awarded in
September 2010, the WPS contract consolidated the requirements of the Department’s previous
Worldwide Personal Protective Services contract and individual local guard force contracts for
U.S. Embassies Baghdad and Kabul. The WPS contract is a multiple award, indefinite delivery,
indefinite quantity contract awarded to eight contractors: Aegis Defense Services, DynCorp
International, EOD Technology, Global Integrated Security, International Development
Solutions, SOC LLC, Torres International Services, and Triple Canopy, Inc. These eight
contractors bid for task orders under the base contract, and as of December 2012, eight task
orders5 had been awarded for security support in Iraq, Afghanistan, and Jerusalem.

        Of the eight task orders awarded, four support the U.S. Mission to Iraq: Task Order 3
was issued to SOC LLC to provide Baghdad static guard services; Task Order 5 to Triple
Canopy, Inc., for Baghdad movement security; Task Order 6 to Global Integrated Security for
Basrah static and movement security, and Task Order 8 to DynCorp International for Irbil static
and movement security.6 This audit report specifically addresses Task Order 5. Subsequent
audit reports will address additional task orders awarded under the WPS contract.

Worldwide Protective Services Task Order 5

       Task Order 5 was awarded to Triple Canopy, Inc., in February 2011 for a base year plus
four option years. Under the task order terms, Triple Canopy, Inc., is required to provide
movement security, logistical support, and emergency medical support for the Chief of Mission
personnel, visiting dignitaries, and other personnel upon the regional security officer’s request.
The statement of work divides the task order into three separate programs: the Embassy
program, the Airport option program, and the INL-Iraq program. The base year staffing
requirements for each of the programs were as follows:7

                 Embassy program: 599 contractor personnel, of which 483 were responsible for
                  conducting movement security missions and emergency response. The remaining
                  116 contractor personnel were responsible for providing administrative,
                  management, training, intelligence, and operational support.


5
  The eight task orders do not include the task order awarded for centralized program management in the United
States for each security contractor and any terminated or canceled task orders.
6
  Movement security involves ensuring the safety and security of personnel in mobile operations. Static Guard
Services refer to the protection of facilities, primarily housing and office space, in fixed locations.
7
  The total staffing requirements for Task Order 5 varied throughout the base year because of the phases to set up the
INL-Iraq program and because of adding and removing explosive ordinance detection technicians and medical
personnel. The base year staffing requirement numbers shown are as of April 20, 2012. In addition, these staffing
requirements are for the personnel present and ready to work. The staffing requirements do not include the
contractor personnel who are taking days off or are in rest and recuperation status. The contractor maintains a pool
of about one-third more personnel than the level required by the task order to allow for those personnel who are on
rest and recuperation status.

                                                          4

                                               UNCLASSIFIED
                                             UNCLASSIFIED


                Airport option program: 84 contractor personnel, all of whom were responsible
                 for providing movement security between the Embassy and the Baghdad
                 Diplomatic Support Center. 8 The Airport option was exercised on May 8, 2011.

                INL-Iraq program: 203 contractor personnel, all of whom were responsible for
                 providing movement security and support services for the INL-Iraq Police
                 Development program.

         The specific titles for each position are in Appendix B.

        The value of Task Order 5, if all four option years are exercised, will be about
$1.5 billion. As of December 2012, the Department had obligated $499.6 million and had
expended $347.8 million on the task order. The task order value, obligated amounts, and
expended amounts are shown in Table 2.

Table 1. Task Order 5 Funding (Amounts in millions of U.S. dollars)
                                         Task Order Value*           Obligated*          Expended*
Base Year (5/8/11–5/7/12)                               $334.5               $304.1             $227.8
Option Year 1 (5/8/12–5/7/13)                              297.4               195.5              120.0
Option Year 2 (5/8/13–5/7/14)                              289.8
Option Year 3 (5/8/14–5/7/15)                              289.9
Option Year 4 (5/8/15–5/7/16)                              291.9
Total:                                                $1,503.5               $499.6             $347.8
* As of December 2012.
Source: OIG analysis of DS data, Federal Procurement Data System, and Global Financial Management System.

Contract Management and Oversight

        A/LM/AQM is responsible for administering the WPS base contract and the contract task
orders. The A/LM/AQM contracting officers for the WPS contract are colocated with the DS
High Threat Protection Division (DS HTP) in Arlington, Virginia. The contracting officers are
responsible for awarding, negotiating, administering, modifying, and terminating contracts and
for making related determinations and findings on behalf of the U.S. Government.

        The WPS contracting officers appointed the DS HTP division chief as the primary COR
for the WPS base contract. As the primary COR, the DS HTP division chief is responsible for
providing WPS contract oversight, including inspection and acceptance of contract services;
providing technical advice to the contractor; monitoring contractor’s performance; and reviewing
and approving contractor’s invoices and supporting documentation. For Task Order 5, the COR

8
  The Baghdad Diplomatic Support Center, formerly known as Sather Air Base, is located adjacent to Baghdad
International Airport. The Baghdad Diplomatic Support Center supports over 1,000 people, including the Sully
Compound, which handles transiting travelers for most of Iraq.

                                                       5

                                             UNCLASSIFIED
                                              UNCLASSIFIED

is assisted by two alternate CORs and other DS HTP staff who are responsible for reviewing
invoices, muster sheets, contractor staff qualifications, inventory reports, and drug test reports.
The primary COR and two alternate CORs conduct their contract oversight responsibilities from
Arlington and make periodic site visits to Iraq to conduct program management reviews.

        In Iraq, an onsite COR, alternate CORs, and a GTM provide additional oversight for the
WPS contract and Task Order 5. The onsite personnel are responsible for providing oversight of
the contractor’s day-to-day operations to ensure compliance with contract and task order terms
and conditions. The onsite COR is the deputy regional security officer for U.S. Mission-Iraq,
and the five alternate CORs are assistant regional security officers, who assist in providing
overall oversight of security operations, logistics, training, and the tactical operations center.9
The GTM reviews the WPS contract deliverables, including the contractor’s muster sheets,
inventory reports, and training records. The GTM also assists DS HTP in conducting the
program management reviews.

                                             Audit Objective
       OIG initiated this audit at the request of DS and under the authority of the Inspector
General Act of 1978, as amended, to determine the effectiveness of the Department’s
management and oversight of the WPS contract, Task Order 5. The audit objective was to
determine whether

            the contractor’s work was adequately monitored,

            the contractor was performing in accordance with contract terms and conditions, and

            invoice review and approval procedures were in place to ensure accuracy and
             completeness of costs.

        OIG announced compliance with the Federal Acquisition Regulation, clause 52.222-50,
“Trafficking in Persons,” as an objective. However, OIG did not pursue this objective after
determining that the contractor did not have any third-country national employees working on
the contract. The audit scope was limited to the base year of Task Order 5.




9
 The tactical operations center provides command and control support for U.S. Mission Iraq security operations
24 hours a day, 7 days a week. The tactical operations center also functions as an embassy command post and
clearinghouse for information, operational documentation and forms pertaining to personal security detail
coordination and near-term emergency matters.

                                                        6

                                              UNCLASSIFIED
                                                UNCLASSIFIED


                                                 Audit Results

Finding A. Base Year Contractor Staffing Requirements Exceeded
Movement Security Needs
        Contractor staffing requirements for the base year of WPS Task Order 5 exceeded the
staffing needs for the Baghdad movement security mission. Specifically, for the Embassy
program and the Airport option program combined, only 253 (49 percent) of the 513 contractor
personnel provided were used, on average, to conduct daily movement security missions. The
overstaffing occurred because DS did not conduct a needs analysis before awarding the task
order and unnecessarily exercised the Airport option. In addition, although the onsite COR,
primary COR, and GTM were ensuring that Triple Canopy, Inc., generally complied with the
contract terms and conditions, they did not review the contractor’s daily movement detail reports
or adequately review the contractor’s muster sheets to assess security staffing needs against the
movement security requirements. As a result, the Department paid $20.6 million during the base
year to retain, for the Airport option program, 84 contractor security personnel who were not
needed. In addition, the Department paid approximately $111.8 million for 429 Embassy
program security personnel who were not part of the Airport option. OIG determined that the
Department still would have used only about 253 (59 percent) of the 429 movement personnel
provided by the contractor without additional Airport option personnel to conduct daily
movement security missions. However, OIG could not determine how much of the
$111.8 million was overpaid, since DS could not provide the methodology it used to determine
security staffing levels. The Department could have used the $20.6 million and any of the
$111.8 million unnecessarily paid to address other security needs.

        During the audit, OIG briefed DS on the preliminary audit results. Based on those
briefings, and in conjunction with the Department’s efforts to reduce the overall staffing of U.S.
Mission-Iraq, DS issued a notice to proceed to de-scope the total task order staffing by
273 personnel in August 2012. OIG commends DS for taking this action. These reductions
should save the Department about $362 million over the contract lifecycle. However, the de-
scoping effort was not based on a valid staffing needs analysis. A staffing needs analysis should
be completed and further reductions taken if necessary.

Task Order 5 Overstaffed

       From May 2011 to April 2012, contractor staffing requirements for WPS Task Order 5
exceeded the staffing needs for the Baghdad movement security mission. For the Embassy
program and the Airport option program combined, the task order required a total of
567 movement security personnel, of which Triple Canopy, Inc., provided an average of
513 personnel daily.10 However, of those 513 personnel provided, only 253 (49 percent) were

10
   The staffing numbers do not include movement security personnel for the INL-Iraq program because it is a
separate program paid with INL funds. Also, INL had taken action to adjust staffing based on the downsizing of the
Iraq Police Development program. The movement security personnel includes only the protective service positions
responsible for actually conducting movement security missions (that is, shift leaders, protective security specialists

                                                           7

                                                UNCLASSIFIED
                                                  UNCLASSIFIED

used, on average, to conduct the daily movement security missions. Movement security
personnel used versus personnel provided for the Embassy and Airport option program is shown
in Figure 1.

Figure 1. Task Order 5 Movement Security Personnel Used Versus Personnel Provided for
the Embassy Program

              Task Order 5 Movement Security Personnel Utilized for Embassy Program 
                                           (Monthly Average of Daily Measures)
     600 

     500 

     400 

     300 

     200 

     100 

       0 
            May‐11   Jun‐11   Jul‐11   Aug‐11   Sep‐11    Oct‐11   Nov‐11    Dec‐11    Jan‐12   Feb‐12    Mar‐12   Apr‐12
                                         Embassy Program Movement Security Personnel Provided
                                         Embassy Program Movement Security Personnel Used
                                         Embassy Program Movement Security Personnel Required by Task Order

Source: OIG Analysis of DS and Triple Canopy, Inc., data.

       OIG analysis also found that if the Airport option had not been added, the Embassy
program still would have used about 253 (59 percent) of the 429 movement security personnel
provided by the contractor to conduct daily movement security missions.

Needs Analysis Not Conducted

        The base year overstaffing occurred because DS did not conduct a needs analysis before
awarding the task order and unnecessarily exercised the Airport option. The Federal Acquisition
Regulation11 states that the purpose of acquisition planning is to ensure that the Government
meets its needs in the most effective and economical manner and that knowledge gained from
prior acquisitions should further refine requirements. According to DS HTP officials, DS did not
revise the prior contract requirements based on the security mission but simply carried over the
staffing requirements from the previous Worldwide Personal Protective Services contract. OIG
noted that the task orders under the previous Worldwide Personal Protective Services contracts
for Iraq were awarded in 2004 and 2005, respectively, and according to regional security officers
and Triple Canopy, Inc., management staff, the environment has changed and movement
missions have decreased since the withdrawal of U.S. military forces. OIG’s analysis also found

________________________
and interpreters, designated defense marksmen, explosives detection dog handlers, and emergency medical
technicians. The movement security personnel does not include other management or administrative positions.
11
   Federal Acquisition Regulation, subpt. 7.1, “Acquisition Plans.”

                                                              8

                                                  UNCLASSIFIED
                                              UNCLASSIFIED

that the level of movement security operations had decreased since the U.S. military withdrawal
in December 2011.

        When Task Order 5 began, DS and A/LM/AQM unnecessarily exercised the Airport
option program, which added 84 contractor personnel: 12 shift leaders, 12 designated defensive
marksmen, 12 emergency medical technicians, and 48 protective security specialists (PSS). The
Foreign Affairs Handbook12 (FAH) states that contract options may be exercised only when the
requirements of the option fulfill an existing need, and the exercise of the option is most
advantageous to the U.S. Government with price and other factors considered. According to the
COR, the regional security officer subsequently realized that these 84 personnel were not needed
for the Airport option program, since capable movement security teams existed under the
Embassy program to carry out Airport movement security and also because ground transport was
to be taken over by helicopter transport. Rather than de-scoping the Airport program option, DS
re-allocated those personnel to the Embassy program.

Contract Monitored for Compliance but not Excess Staffing

         Although, DS monitored Triple Canopy, Inc., to ensure that it met contract terms and
conditions, DS did not assess staffing levels against the movement security mission. The onsite
COR and GTM in Baghdad reviewed the contract deliverables, including incident reports,
training records, inventory reports, and monthly performance reports. The primary COR and DS
HTP staff in Arlington, Virginia, reviewed other contract deliverables, including invoices and
drug test reports. However, DS did not review the contractor’s daily movement reports and did
not adequately review the contractor’s muster sheets to assess whether the task order had excess
staff.

         The onsite COR and GTM and the primary COR in Virginia ensured that Triple Canopy,
Inc., staff generally met contract-required qualifications and training. The WPS contract requires
contractor personnel to meet minimum experience, training, and certification for each position
and labor category. All labor categories listed as protective security positions, otherwise
specified as PSS-qualified positions, are required to complete PSS training,13 and all armed
contractor personnel need to requalify on required firearms quarterly. OIG noted that DS HTP
screened Triple Canopy, Inc.’s personnel for qualifications prior to and during service, and GTM
checked contractor’s weapons requalification status and reviewed training records in Baghdad.
Further, OIG’s analysis of selected Triple Canopy, Inc., movement security personnel
determined that those movement personnel met the contract-required qualifications, experience,
and training. In addition, the onsite COR and GTM ensured that Triple Canopy, Inc., personnel
followed the contract-required use of force policy. OIG’s analysis of incident reports determined
that Triple Canopy, Inc., had not had any incidents involving the use of deadly force or escalated




12
  14 FAH-2 H-532, “Types of Contract Modifications.”
13
  PSS training includes use of deadly force and weapons equipment training, mission operations, cultural
awareness, technical driving, motorcade operations, and defensive tactics.

                                                        9

                                              UNCLASSIFIED
                                             UNCLASSIFIED

use of force. Triple Canopy, Inc., had only a few instances of negligent discharges14 for which it
took appropriate actions.

        However, the CORs and the GTM did not review the contractor’s daily movement reports
and did not adequately review the contractor’s muster sheets to monitor the actual number of
movement security personnel being utilized against the staffing level. The WPS COR checklist
for Task Order 515 requires the COR to review and validate the contractor’s daily movement
detail reports, the contractor’s monthly muster sheets, and the contractor’s monthly labor
invoices to inspect and monitor services provided under the task order. Triple Canopy, Inc.’s
daily movement detail reports track missions run per day by teams, number of protective
personnel used, and mission durations and destinations. However, these reports were simply
maintained at the tactical operations center without COR and GTM review. Moreover, the GTM
only spot-checked about 10 entries on the monthly muster sheets with Triple Canopy, Inc.’s
biometric scanned results to check the days off and days of emergency leave against billed days,
while Triple Canopy, Inc.’s monthly muster sheet listed approximately 36,000 entries
(1,200 staff16 x 30 days) each month.

Department Paid for Unnecessary Contractor Personnel

       As a result of excess contractor personnel, the Department paid, at a minimum, $20.6
million during the base year to retain unnecessary 84 movement security personnel for the
Airport option program. In addition, the Department paid approximately $111.8 million for
429 Embassy program security personnel who were not part of the Airport option program.
Although OIG determined that, without additional Airport option personnel, the Department still
would have used only about 253 (59 percent) of the 429 personnel provided, OIG could not
determine how much of the $111.8 million was overpaid because DS could not provide the
methodology it used to determine the level of security personnel needed on the ground. The
Department could have used the $20.6 million and any of the $111.8 million unnecessarily paid
to address other security needs.

Management Actions Taken

        During OIG’s audit, OIG briefed DS officials on the preliminary audit results of Task
Order 5 staffing. Based on those briefings, and in conjunction with the Department’s efforts to
reduce the overall staffing of U.S. Mission-Iraq, DS issued a notice to proceed to de-scope the
overall task order staffing from 886 to 613 in August 2012. Specifically, DS reduced the staffing
requirements, including the management, support, and movement security personnel, from
599 to 530 personnel for the Embassy program; from 84 to zero personnel for the Airport option

14
   Negligent discharge refers to any accidental, careless, or irresponsible discharge of firearms from contractor
personnel.
15
   WPS COR Checklist is a contracting officer-approved checklist that DS provides to CORs to provide guidance on
COR duties and enhance oversight.
16
   Contractor’s monthly muster sheets included approximately 1,200 personnel each month for both the Embassy
and the INL-Iraq program, which included all management, administrative, movement security personnel, and the
personnel who were in rest and recuperation status.

                                                       10

                                             UNCLASSIFIED
                                       UNCLASSIFIED

program; and from 203 to 83 personnel for the INL-Iraq program. OIG commends DS for taking
this action. These reductions should save the Department about $362 million over the contract
lifecycle. However, the de-scoping effort was not based on a staffing needs analysis. A staffing
needs analysis should be completed, and further reductions should be taken if necessary.

       Recommendation 1. OIG recommends that the Bureau of Diplomatic Security and the
       Bureau of Administration, Office of Logistics Management, Office of Acquisitions
       Management, institute procedures to ensure that a needs-based analysis is conducted and
       documented prior to establishing all Worldwide Protective Services task order staffing
       requirements and prior to exercising task order options.

       Management Response: DS concurred stating that it will ensure a needs-based analysis
       is completed prior to establishing WPS task order staffing requirements or exercising task
       order options. DS also stated that it will conduct and submit a needs-based analysis to
       the COR and place it in the appropriate contract file for reference. A/LM/AQM also
       concurred stating that it will use the DS furnished needs-based assessment to initiate and
       continue work under WPS relating to staffing levels.

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that procedures have been
       implemented to ensure needs-based analyses are conducted and documented prior to
       establishing all future WPS task orders and their options.

       Recommendation 2. OIG recommends that the Bureau of Diplomatic Security and the
       Regional Security Office in Baghdad establish a process to ensure that the contractor’s
       daily movement detail reports and muster sheets are reviewed by the onsite contracting
       officer’s representative to monitor actual staff usage against the number of staff paid.

       Management Response: DS concurred stating that the GTMs and CORs will monitor
       staff usage and daily movement details and validate the muster sheets. DS stated that it
       will coordinate with Post to refine how the mission tempo metric is recorded so that it
       accurately reflects the mission needs. DS also stated that it will brief OIG on the refined
       metric no later than September 30, 2013.

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that the GTMs and CORs
       are reviewing the daily movement detail reports and reconciling the reports against
       mission needs.

       Recommendation 3. OIG recommends that the Bureau of Diplomatic Security, in
       coordination with the Bureau of Administration, Office of Logistics Management, Office
       of Acquisitions Management, establish a process to ensure that Worldwide Protective
       Services contract staffing requirements are adjusted when needs change during the
       contract performance period.



                                                11

                                       UNCLASSIFIED
                                UNCLASSIFIED

Management Response: DS concurred stating that it will coordinate with A/LM/AQM
and Post to establish a process to identify potential adjustments in WPS staffing and
reflect those adjustments in contract modifications. DS also stated that it will ensure that
the adjustments maintain sufficient capacity to support the Chief of Mission strategic
engagement objectives. A/LM/AQM also concurred stating that it will work with DS to
establish a process to ensure WPS contract staffing requirements are adjusted when needs
change.

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation indicating that a process has been
established to ensure that DS and A/LM/AQM adjust the WPS contract staffing
requirements when needs change.




                                         12

                                UNCLASSIFIED
                                             UNCLASSIFIED


Finding B. The Department Approved and Paid Invoices Containing
Unallowable, Unsupported, and Erroneous Costs
        OIG reviewed 100 percent of Triple Canopy, Inc.’s base year invoices, which consisted
of 154 invoices dated from March 2011 to May 2012. OIG found that the COR had approved
27 invoices (18 percent), totaling about $1,775,727, that included unallowable and unsupported
costs and costs paid in error. Specifically, the COR approved

                6 invoices containing $117,030 in unallowable costs,

                19 invoices containing $1,642,537 in unsupported costs, and

                2 invoices containing $16,160 in erroneous costs.

        The invoices were approved because the CORs were not adequately verifying the
contractor’s invoices against supporting documentation or verifying the receipt of contract goods
and services. As a result, the Department paid the contractor at least $117,030 in unallowable
costs and made $16,160 in erroneous payments. Those funds should be recovered from the
contractor. In addition, without supporting documentation, OIG could not determine whether
$1,642,537 in costs were allowable, allocable, or reasonable. Therefore, the Department should
conduct a comprehensive review of all invoices and supporting documentation to determine
whether additional funds should be recovered.

Invoice Approval Requirements

        Requirements for approving WPS contractor invoices are contained in Department and
DS guidance. Department requirements are contained in the FAH,17 the Foreign Affairs Manual
(FAM),18 the contract, and the Overseas Contracting and Simplified Acquisition Guidebook.19
The FAH states that a COR should determine whether the charges billed are reasonable,
allocable, and allowable. To make that determination, the COR should verify calculations, unit
prices, labor hours and categories, supplies and equipment to include delivery and acceptance,
and other backup material such as time cards. The FAM20 states that a signed receiving report is
required to initiate the process for payment. According to Chapter 7 of the Overseas Contracting
and Simplified Acquisition Guidebook,21 the COR is required to reject payment if the invoice
does not match the terms contained within the contract and requires the COR to guard against
contractor attempts to add additional amounts to invoices.



17
   14 FAH-2, “Contracting Officer’s Representative Handbook.”
18
   14 FAM 413, “Property Receipt.”
19
   The Overseas Contracting and Simplified Acquisition Guidebook is incorporated by reference into 14 FAM 213,
“Acquisition Regulations and Directives.”
20
   14 FAM 413.3, “Receiving Responsibility.”
21
   This section of the guidebook is addressed to the Financial Management Officer. However, for the WPS
Protective Services contract, the COR is responsible for the review and approval of invoices.

                                                      13

                                             UNCLASSIFIED
                                                UNCLASSIFIED

       DS requirements for approving invoices are contained in the DS HTP Payment
Management Standard Operating Procedure, dated March 23, 2012. The procedure requires the
COR to obtain and review receipts to verify the cost of items greater than $75, and for training
invoices, graduation certificates, and proof of deployment, to validate that contractor personnel
completed training and were subsequently deployed.

Unallowable and Unsupported Costs and Costs Paid in Error

Of the 154 base year Triple Canopy, Inc., invoices, the COR approved 27 invoices (18 percent)
that contained about $1,775,727 in unallowable and unsupported costs and costs paid in error.
Specifically, the COR approved six invoices containing $117,030 in unallowable costs,
19 invoices containing $1,642,537 in unsupported costs, and two invoices containing $16,160 in
erroneous costs. A listing of the 27 invoices as well as the methodology OIG used to review all
154 invoices is contained in Appendix A.

           Unallowable Costs

        The COR approved six invoices containing $117,030 in unallowable costs, four invoices
that contained $74,465 in unallowable labor costs, and two invoices that contained $42,56522 in
unallowable training costs. The unallowable labor costs were for a Triple Canopy, Inc.,
employee who was not qualified for his position because he was deployed without approval by
the Department and did not pass the required physical fitness test. Section H of the WPS
contract states that any position filled by an individual either unqualified or not approved by DS
prior to deployment will be considered unfilled. The contract also states that the contractor must
acknowledge through the training records that candidates have passed a physical fitness test
“prior to, and within 90 days of deployment.” In January 2012, the COR denied training costs
for the employee because he had not passed the physical fitness test and had not received DS
approval to deploy, but the COR did not request that the labor costs paid for the employee from
September to December 2011 be recovered.

        The unallowable training costs were for three employees who took Support Personnel
(non-Personal Security Specialist, non-Guard) training. Although Triple Canopy, Inc., submitted
certificates of completion for the training, the training was completed in 2010 prior to the award
of Task Order 5 and therefore was not payable under the task order terms.

           Unsupported Costs

       The COR approved 19 invoices that contained $1,642,537 in unsupported costs. The
reimbursable portion of the contract allows the contractor to bill for training, materials, and
equipment during the course of the contract, but the contractor must provide supporting
documentation to support the cost. The COR approved two WPS training invoices23 for
$642,098 that did not include certificates of completion, which are required by the contract and

22
     This amount was rounded up a dollar to match the total numbers that were rounded up.
23
     The training was for the WPS transition training and firearms instructor course.

                                                         14

                                                UNCLASSIFIED
                                            UNCLASSIFIED

DS HTP standard operating procedures. The COR approved the remaining 17 invoices, totaling
$1,000,439, for cost-reimbursable contractor-acquired property,24 such as body armor, helmets,
binoculars, and communications equipment, without verification of receipt and acceptance at
post. Three of the 17 invoices also did not contain receipts or proof of purchase for costs of
$132,656.

        Invoice Review Errors

        The COR approved two training invoices that had $16,160 in errors, resulting in
overpayment to the contractor. On one training invoice, the COR denied payment of a PSS
transition training course that cost $16,543 on an invoice totaling $127,840. The approved
amount should have been $111,297 ($127,840 minus $16,543). However, the invoice was
approved for $111,543, resulting in a $246 overpayment. Another training invoice included
$46,084 for a PSS training course. However, the certificate of completion was for Designated
Defensive Marksman training, which cost $30,170. The COR approved the training invoice as
submitted, resulting in a $15,914 overpayment.

Insufficient Review of Contractor Invoices

       The COR approved invoices for payment without verifying supporting documentation
and ensuring that the contractor billed only valid costs. The COR did not verify that the costs
were allowable under the contract terms and conditions and did not require the contractor to
provide supporting documentation to substantiate the reimbursable costs. Additionally, the DS
standard operating procedures for invoice review did not require verification that property was
received and accepted at post by issuance of a receiving and inspection report (Form DS-127).

        According to DS HTP staff performing the initial invoice reviews for the COR, the
invoice review consists of checking that training and travel costs were only for individuals who
deployed, for labor rates and quantities that did not exceed contract requirements, and for
mathematical accuracy. In reviewing vouchers, the COR did not adequately review supporting
documentation and did not request sufficient information from the contractor to determine
whether the charges billed were reasonable, allocable, and allowable and that contractor-acquired
property had been received and accepted at post. To make that determination, the COR should
have verified all supporting documentation and requested additional supporting documentation
for receipt of contractor-acquired property.

        DS HTP’s standard operating procedures do not require verification that property has
been received and accepted at post or that receiving and inspection reports (Form DS-127) have
been completed. This lack of verification is inconsistent with information contained in the
FAH and the FAM. The FAH25 states that receipt of all property at post must be documented by
using receiving and inspection reports, and the FAM26 states that a signed receiving report is

24
   WPS Base Contract SAQMMA10D0104, sec. J, ex, I, “Standard Equipment,” states that upon task order award,
the Government will provide the contractor with a list of Government Furnished Equipment.
25
   14 FAH-1 H-313.3, “Receiving Reports.”
26
   14 FAM 413.3, “Receiving Responsibility.”

                                                     15

                                            UNCLASSIFIED
                                       UNCLASSIFIED

required to initiate the process for payment. Logistics personnel at Triple Canopy, Inc., received
the goods in Baghdad and did not report the receipt of goods to Embassy Baghdad or to DS HTP
officials. In addition, DS did not provide invoices to the regional security officer, the COR, or
the GTM in Baghdad for onsite review and validation prior to payment.

        A/LM/AQM should ensure that the COR follows Department invoice approval
certification procedures to preclude the payment of similar unallowable and unsupported costs
during the remainder of the contract.

Unallowable and Unsupported Costs Should Be Recovered

       OIG identified $117,030 paid to the contractor for training and labor costs that were not
authorized and $16,160 made in erroneous payments. Those costs should be recovered from the
contractor. In addition, the contracting officer should perform a comprehensive review of all
invoices to determine whether costs are fully allowable and supported, including the
$1,642,537 in costs identified by OIG that lacked adequate support. If those costs are not
allowable and fully supported, those costs should also be recovered from the contractor.

       Recommendation 4. OIG recommends that the Bureau of Administration, Office of
       Logistics Management, Office of Acquisitions Management, direct the contracting officer
       to ensure that invoices are sent to contracting officer’s representatives or government
       technical monitors at Embassy Baghdad for review to verify that the contractor is
       invoicing only for goods received and services delivered.

       Management Response: A/LM/AQM concurred stating that all labor invoices are
       currently submitted with a muster sheet signed by the COR or GTM and that the WPS
       contract requires the contractor to submit the muster by the regional security officer or
       designee for the location, along with the applicable invoice. A/LM/AQM also stated that
       the domestic COR then conducts a thorough review of the invoice and confirms through
       the Iraq onsite COR and GTM that the contractor is invoicing only for goods and services
       delivered to Post.

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that the COR or GTM in
       Baghdad are reviewing all Task Order 5 invoices and supporting documentation to ensure
       the invoiced goods and services are delivered.

       Recommendation 5. OIG recommends that the Bureau of Diplomatic Security perform
       a comprehensive review of its existing payment management standard operating
       procedure as it relates to invoice review to ensure sufficient review of all invoices and
       supporting documentation, including onsite review of invoices, and to ensure that the
       Department of State has received goods prior to payment.




                                                16

                                       UNCLASSIFIED
                               UNCLASSIFIED

Management Response: DS concurred stating that it initiated a comprehensive review
of the invoice process and instituted updated standard operating procedures during the
summer of 2012.

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation showing that the updated DS
standard operating procedures require a comprehensive review of all invoices and
supporting documentation prior to payment.

Recommendation 6. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, recover the $133,190 paid
to the contractor for unallowable and erroneously approved costs.

Management Response: A/LM/AQM concurred stating that it intends to review the
subject payments to determine allowability and immediately seek recovery of any
payments made to the contractor in error.

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation of funds recovered or
documentation to substantiate the $133,190 paid to the contractor.

Recommendation 7. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, direct the contracting officer
to conduct a comprehensive review of all contractor invoices and supporting
documentation to determine whether the contractor submitted adequate supporting
documentation for all reimbursable costs, including the $1,642,537 identified in this
report. If the documentation was not submitted, the contracting officer should request
supporting documentation from the contractor and determine whether the costs were
allowable under the contract terms. If the reimbursable costs cannot be supported or are
not allowable under the terms of the contract, the Department of State should recover
these funds from the contractor.

Management Response: A/LM/AQM concurred stating that it would, in collaboration
with DS, conduct a comprehensive review of the subject invoices in question to
determine whether the contractor submitted adequate supporting documentation.
A/LM/AQM will seek immediate recovery of any payments made in error.

OIG Reply: OIG considers the recommendation resolved. The recommendation can be
closed when OIG reviews and accepts documentation of funds recovered or
documentation to substantiate the $1,642,537 paid to the contractor.




                                       17

                               UNCLASSIFIED
                                        UNCLASSIFIED


                                     List of Recommendations

Recommendation 1. OIG recommends that the Bureau of Diplomatic Security and the Bureau
of Administration, Office of Logistics Management, Office of Acquisitions Management,
institute procedures to ensure that a needs-based analysis is conducted and documented prior to
establishing all Worldwide Protective Services task order staffing requirements and prior to
exercising task order options.

Recommendation 2. OIG recommends that the Bureau of Diplomatic Security and the Regional
Security Office in Baghdad establish a process to ensure that the contractor’s daily movement
detail reports and muster sheets are reviewed by the onsite contracting officer’s representative to
monitor actual staff usage against the number of staff paid.

Recommendation 3. OIG recommends that the Bureau of Diplomatic Security, in coordination
with the Bureau of Administration, Office of Logistics Management, Office of Acquisitions
Management, establish a process to ensure that Worldwide Protective Services contract staffing
requirements are adjusted when needs change during the contract performance period.

Recommendation 4. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, direct the contracting officer to ensure that
invoices are sent to contracting officer’s representatives or government technical monitors at
Embassy Baghdad for review to verify that the contractor is invoicing only for goods received
and services delivered.

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security perform a
comprehensive review of its existing payment management standard operating procedure as it
relates to invoice review to ensure sufficient review of all invoices and supporting
documentation, including onsite review of invoices, and to ensure that the Department of State
has received goods prior to payment.

Recommendation 6. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, recover the $133,190 paid to the contractor
for unallowable and erroneously approved costs.

Recommendation 7. OIG recommends that the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, direct the contracting officer to conduct a
comprehensive review of all contractor invoices and supporting documentation to determine
whether the contractor submitted adequate supporting documentation for all reimbursable costs,
including the $1,642,537 identified in this report. If the documentation was not submitted, the
contracting officer should request supporting documentation from the contractor and determine
whether the costs were allowable under the contract terms. If the reimbursable costs cannot be
supported or are not allowable under the terms of the contract, the Department of State should
recover these funds from the contractor.



                                                18

                                        UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                    Appendix A

                                 Scope and Methodology
       The Office of Inspector General (OIG) initiated this audit at the request of the Bureau of
Diplomatic Security (DS) and under the authority of the Inspector General Act of 1978, as
amended, to determine the effectiveness of the Department of State’s (Department) management
and oversight of the Worldwide Protective Services (WPS), Task Order 5.

        To accomplish the objective, OIG reviewed the WPS base contract, Task Order 5, related
modifications and documents, contract deliverables, contractor performance assessments,
Program Management Reviews, needs assessments, and use of deadly force policy and standards
of conduct. In Arlington, Virginia, OIG met with officials from the Bureau of Diplomatic
Security and the Bureau of Administration, Office of Logistics Management, Office of
Acquisitions Management, and with representatives from the Triple Canopy, Inc., local program
management office. In Baghdad, OIG interviewed the regional security officer; deputy and
assistant regional security officers; the government technical monitor; embassy officials; and
Triple Canopy, Inc., management, administrative, and protective security staff. In addition, OIG
physically observed the motorcade protection operations and an explosive-detection dog search
demonstration.

       OIG conducted this performance audit from March to December 2012. The audit was
conducted in accordance with generally accepted government auditing standards. Those
standards require that OIG plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for the findings and conclusions based on the audit objective. OIG
believes that the evidence obtained provides a reasonable basis for the findings and conclusions
based on the audit objective.

Review of Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to management of
Task Order 5. OIG reviewed documentation used by the Department for examining and
approving invoices for payment, examined the contracting officer’s checklist for onsite
monitoring of Task Order 5, and reviewed use of deadly force policy and standards of conduct.
Internal control deficiencies identified during this audit are detailed in the “Audit Results”
section of this report.

Use of Computer-Processed Data

       OIG reviewed 154 invoices available during the audit to determine whether the
Department adequately examined invoices prior to approval and that only allowable costs were
approved. OIG then reviewed information from the Department’s Global Financial Management
System for each invoice to ensure that the contractor was paid at the approved amount.
Although some invoices were approved with errors, as described in Finding B of this report, OIG


                                               19

                                       UNCLASSIFIED
                                        UNCLASSIFIED

concluded that the contractor was paid at the approved amount on all invoices included in the
scope of the audit.

       To review contractor personnel qualifications and training record maintenance, OIG used
the contractor’s Personnel and Logistics System through an Internet-based portal, which is the
contractor’s primary tool used to manage its personnel, training, and property records.

        To review the number of contractor personnel provided and actually utilized, OIG
analyzed the contractor’s daily movement reports, muster sheets, and staffing rosters. OIG
identified 567 movement security personnel required for the Embassy program and the Airport
option program from the task order and the muster sheets, which listed the number of required
staff per position category. For the number of movement security personnel provided, OIG used
the contractor’s muster sheets, which listed all contractor personnel and their presence, including
the movement security, support, and management personnel and personnel who were in rest and
recuperation status and were taking days off. OIG extracted only the movement security
personnel who were on the ground and were available to work to generate the number of
movement security personnel provided each day. OIG then computed an average for each month
and computed an overall average for the base year. For the number of movement security
personnel utilized, OIG used the contractor’s daily movement reports and summed the number of
personnel conducting missions each day. OIG then computed an average for each month based
on the number of workdays and computed an overall average for the base year. OIG found
instances of formula errors on the daily movement reports and corrected erroneous formulas
during its analysis.

Sampling Methodology and Results

        OIG evaluated the invoice review and approval procedures of the Bureau of Diplomatic
Security’s High Threat Protection Division for Task Order 5 to determine the accuracy and
completeness of costs. OIG reviewed 100 percent of the base year invoices, which consisted of
154 invoices dated from March 2011 (date of notice to proceed) through May 7, 2012 (end of
contract base year). The 154 invoices consisted of 24 for labor, 37 for training, 28 for firm
fixed-price contract line item numbers, and 65 for cost-reimbursable contract line item numbers.
OIG identified two training invoices with $42,565 in unallowable costs, two training invoices
with unsupported costs totaling $642,098, and two training invoices with $16,160 in costs that
were erroneously approved. OIG identified 17 invoices for contractor-acquired property without
sufficient documentation that items had been received at Embassy Baghdad and three of the
17 with $132,656 in unsupported costs for purchase. OIG identified four labor invoices with
unallowable labor costs totaling $74,465. The results of OIG’s review are summarized in Tables
1, 2, and 3.




                                                20

                                        UNCLASSIFIED
                                            UNCLASSIFIED


Table 1. Unallowable Costs
   Item                                                                    Unallowable
  Number        Invoice Number            Cost Category                          Costs
     1          1505E003T                 Training                          $28,376.26
     2          1505E012T                 Training                          $14,188.13
     3          1505I008R                 Labor                             $10,637.90
     4          1505I010                  Labor                             $22,094.10
     5          1505I012                  Labor                             $21,275.80
     6          1505I015                  Labor                             $20,457.50
                                       Total Unallowable Costs             $117,029.69


Table 2. Unsupported Costs
 Item                                                                       Unsupported
Number       Invoice Number         Cost Category                                  Costs
   1        1505E001T               Training                                 $615,122.24
   2        1505I002T               Training                                  $26,975.53
   3        5ICF11D002              Contractor Acquired Property              $11,328.83
   4        5ICF11D001              Contractor Acquired Property             $103,050.15
   5        5ECF11E001 *            Contractor Acquired Property              $88,308.86
   6        5ECF11F003              Contractor Acquired Property              $12,558.91
   7        5ECF11G006 *            Contractor Acquired Property              $24,808.82
   8        5ECF11H009 *            Contractor Acquired Property              $27,166.88
   9        5ECF11F003SUP           Contractor Acquired Property              $11,906.28
  10        5ECF11F005SUP           Contractor Acquired Property               $1,623.47
  11        5ECF11G006SUP           Contractor Acquired Property               $1,024.58
  12        5ECF11H009SUP1          Contractor Acquired Property               $1,905.00
  13        5ECF11C010              Contractor Acquired Property             $295,462.32
  14        5ECF11C010SUP           Contractor Acquired Property              $37,340.98
  15        5ECF11D013              Contractor Acquired Property             $303,629.01
                                    Contractor Acquired Property -
   16       5ECS11G004R             Communication                              $34,636.86
                                    Contractor Acquired Property -
   17       5ECS11H005R             Communication                               $5,544.65
                                    Contractor Acquired Property -
   18       5ECS11E001R             Communication                               $7,523.06
                                    Contractor Acquired Property -
   19       5ECS11F002R             Communication                             $32,620.68
                                         Total Unsupported Costs           $1,642,537.11
* Note: These invoices and amounts included at least $132,656.37 in cost-reimbursable
amounts approved without receipts for purchase.




                                                     21

                                            UNCLASSIFIED
                                        UNCLASSIFIED


Table 3. Costs Approved in Error
   Item
  Number         Invoice Number     Cost Category                      Amount
     1         1505I004T            Training                         $15,914.15
     2         1505I007T            Training                           $246.00
                             Total Amount Paid in Error              $16,160.15


        The invoice review consisted of examination of supporting documentation; review of
policies, procedures, and requirements from the Foreign Affairs Manual, the Foreign Affairs
Handbook, and the Federal Acquisition Regulation; interviews with Department personnel
involved in the invoice review and approval process; and comparison of contract documents.
OIG reviewed all invoices by contract line item and compared quantities and unit pricing, where
applicable, with supporting documentation and contract pricing.

         To determine whether Triple Canopy, Inc.’s protective staff met contract-required
qualifications, experience, and training, OIG used random sampling to the extent possible to
select 32 of 471 protective staff listed as being on duty on Triple Canopy, Inc.’s daily staffing
roster. OIG also ensured that it included, in its sample, a shift leader and a unit support
coordinator under each randomly selected team and unit, since these personnel are responsible
for overseeing the teams and units. However, because of logistical considerations, this random
sampling was not always practicable. For example, when a randomly selected person was on a
mission, the next available person provided by the auditee was substituted. OIG conducted
interviews and reviewed training and personnel records of the Triple Canopy, Inc., protective
staff selected.

         OIG conducted an inventory of weapons and sensitive equipment in Baghdad; randomly
selected a sample of items to review inventory controls and to determine whether the inventory
lists of property maintained by Triple Canopy, Inc., were accurate; and performed tests that
verified the existence of the items and the completeness of the lists. OIG found no discrepancies
during these reviews.




                                                22

                                        UNCLASSIFIED
                                                   UNCLASSIFIED


                                                                                                        Appendix B

                      Personnel Staffing for the Embassy Program,
                 the Airport Option Program, and the INL-Iraq Program
Embassy Program:
                           Position                                  Protective (P) or Support (S)   Personnel Required
 Baghdad Management
    Project Manager                                                                S                          1 
    Deputy Project Manager Operations                                              P                          1 
 Protective Service Positions
    Unit Support Coordinator                                                       P                          5
    Shift Leader*                                                                  P                         38
    Protective Security Specialist (PSS)*                                          P                        342
    Designated Defensive Marksman*                                                 P                         39
    PSS Interpreter*                                                               P                          6
    Emergency Medical Technician*                                                  P                         38
    Operations Chief                                                               P                          3
    Explosives Detection Dog Handler*                                              S                         20
    Explosives Detection Dog Kennel Master                                         S                          1
    Training Manager                                                               P                          1
    Integration and Training Instructor                                            P                         16
 Support Positions (S)
    Deputy Project Manager Support                                                 S                          1
    Administrative and Logistics Security Specialist Manager                       S                          5
    Administrative and Logistics Security Specialist                               S                         23
    Operations Security Specialist                                                 S                         10
    Intelligence Analyst Team Leader                                               S                          1
    Intelligence Analyst                                                           S                         13
    Range Master                                                                   S                          1
    Interpreter                                                                    S                         10
    Firearms Instructor                                                            S                         10
    Senior Armorer                                                                 S                          1
    Armorer                                                                        S                          1
    Field Security Technician                                                      S                          0
 Medical Support
    Medical Officer                                                                S                          1 
    Physician Assistant                                                            S                          1 
 Non-Traditional Static Guard Force (Embassy Liaison Unit)
    PSS Senior Guard                                                               P                         10
                                                                                 Total                      599
* Positions responsible for conducting movement security missions.




                                                             23

                                                   UNCLASSIFIED
                                                   UNCLASSIFIED

Airport Shuttle Run Protective Security Detail Team (Option):
                                  Position                            (P) or (S)    Personnel Required
    Shift Leader*                                                         P                 12
    PSS*                                                                  P                 48
    Designated Defensive Marksman*                                        P                 12
    Emergency Medical Technician*                                         P                 12
                                                                        Total               84
 * Positions responsible for conducting movement security missions.



INL-Iraq Program:
                                  Position                            (P) or (S)   Personnel Required
 Baghdad Management
       Deputy Project Manager Operations                                  P                   1
 Protective Service Positions
       Unit Support Coordinator                                           P                   3
       Shift Leader*                                                      P                  12
       PSS*                                                               P                 130
       Designated Defensive Marksman*                                     P                  10
       PSS Interpreter*                                                   P                   4
       Emergency Medical Technician*                                      P                  13
       Explosives Detection Dog Handler*                                  S                   4
 Support Positions
       Administrative and Logistics Security Specialist Manager           S                   1
       Administrative and Logistics Security Specialist                   S                   4
       Operations Security Specialist                                     S                   2
       Intelligence Analyst Team Lead                                     S                   1
       Intelligence Analyst                                               S                   3
       Interpreter                                                        S                  10
       Range Master                                                       S                   1
       Firearms Instructor                                                S                   3
       Armorer                                                            S                   1
                                                                        Total               203
* Positions responsible for conducting movement security missions.
Source: OIG analysis of Task Order 5 Statement of Work.




                                                             24

                                                   UNCLASSIFIED
                                          UNCLASSIFIED


                                                                                                       Appendix C

Bureau of Administration, Office of Logistics Management, Office of
              Acquisitions Management Response


                                                              United Slates Department of State

                                                              Washington. D. C. 20520

                                                             March 13, 2013

     UNCLASSIFIED
     MEMORANDUM

     TO:            OIG/AUD - Evelyn R. Klemstine          IV . .
     FROM:          AlLMlAQM - Catherine Ebert-Gray~

     SUBJECT:       Audit of Bureau of Diplomatic Security Worldwide Protective Services Contracts
                    - Task Order 5 for Baghdad Movement Security

     Thank you for the opportunity to provide our comments on the draft OIG audit report of Bureau
     of Diplomatic Security Worldwide Protective Services (WPS) Contracts - Task Order 5 for
     Baghdad Movement Security. Ms. Sharon James is the point of contact for AQM's audit
                                              (b)(2)(b)(6)
     responses and can be reached at 571-345-            .

     Below you will find the Office of Acquisitions Management's comments.

             Recommendation 1. OIG recommends that the Bureau of Diplomatic Security and the
     Bureau of Administration, Office of Logistics Management, Office of Acquisitions Management,
     institute procedures to ensure that a needs-based analysis is conducted and documented prior to
     establishing all Worldwide Protective Services task order staffing requirements and prior to
     exercising task order options.

             AILMlAQM response: The Bureau of Administration concurs and will use the DS-
     furnished needs-based assessment to initiate and continue work under WPS relating to staffing
     levels.

            Recommendation 3. OIG recommends that the Bureau of Diplomatic Security, in
     coordination with the Bureau of Administration, Office of Logistics Management, Office
     of Acquisitions Management, establish a process to ensure that Worldwide Protective
     Services contract staffing requirements are adjusted when needs change during the
     contract performance period.

             AlLMI AQM response: The Bureau of Administration, Office of Logistics Management,
     Office of Acquisitions Management concurs with this recommendation and will work with DS to
     establish a process to ensure that the Worldwide Protective Services contract staffing
     requirements are adjusted when needs change during the contract perfonnance period.

            Recommendation 4. OIG recommends that the Bureau of Administration, Office of
     Logistics Management, Office of Acquisitions Management direct the contracting officer to
     ensure that invoices are sent to contracting officer's representatives or government technical




                                                      25

                                          UNCLASSIFIED
                                     UNCLASSIFIED




monitors at Embassy Baghdad for review to verify that the contractor is invoicing only for goods
received and services delivered.

       AlLM/AQM response: The Bureau of Administration concurs with this recommendation
and is pleased to report that all labor invoices are currently submitted with a muster signed by the
COR or GTM that verifies contractor goods and services are delivered. Section G of the
CoJ1lract currently requires the contractor to submit a copy of the monthly muster signed by the
RSO, DR SO or designee responsible for the location, along with the applicable invoice for
payment. The Domestic COR then conducts a thorough review of the invoice and confirms
through the OCONUS COR and GTM that the contractor is invoicing only for goods and
services delivered to post.

       Recommendation 6. DIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management recovcr the $133,190 paid to the
contractor for unallowable and erroneously approved costs.

       A1LM/AQM response: The Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Managcment concurs with this recommendation and intends to review the
subject payments made to the contractor to determine allowability and immediately seek
recovery of any payments made to the contractor in error.

       Recommendation 7. DIG recommends that the Bureau of Administration, Office of
Logistics Management, Oflice of Acquisitions Management, direct the contracting officer to
conduct a comprehensive review of all contractor invoices and supporting documentation to
determine whether the contractor submitted adequate supporting documentation for all
reimbursable costs, including the $1 ,642.537 identified in this report. If the documentation was
not submitted, the contracting officer should request supporting documentation from the
contractor and detennine whether the costs were allowable under the contract terms. If the
reimbursable costs cannot be supported or arc not allowable under the terms of the contract, the
Department of State should recover these funds from the contractor.

       A1LM/AQM response: The Bureau of Administration concurs with this recommendation
and in collaboration with appropriate DS HTP representatives will conduct a comprehensive
review of the subject invoices in question to determine whether the contractor submitted
adequate supporting documentation for all reimbursable costs identified in this report. The
contracting officer will immediately seek recovery of any payments made in error.




                                                 26

                                     UNCLASSIFIED
                                UNCLASSIFIED


                                                                                              Appendix D

           Bureau of Diplomatic Security Response


                                                     United States Department of State

                                                      Assistant Secretary olState
                                                     lor Diplomatic Security "AR    15 2013
                                                     Washington, D.C. 20520 ~




INFORMAnON MEMO TO OIG - EVELYN R. KLEMSTINE,
ASSISTANT INSPECTOR GENERAL FOR AUDITS

FROM:       DS- Gregory B. Starr, Acting   ~     \     6~i        -
SUBJECT: Draft Report- Audit of Bureau ofDiplomatic Security (DS)
         Worldwide Protective Services (WPS) Contracts - Task Order 5 for
         Baghdad Movement Security

      Thank you for the opportunity to review the subject draft report. Attached
please find DS's comments.

Attachments:
      Tab 1 - DS Comments
      Tab 2 - Page 19 of the draft OIG report with supporting documents.




                                           27

                                UNCLASSIFIED
                                UNCLASSIFIED




  DS Comment on OIG Audit of Bureau of Diplomatic Security Worldwide
Protective Services Contracts - Task Order 5 for Bagbdad Movement Security


Summary:

     On February 22, 2013, the Bureau ofOiplomatic Security (OS) received the
initial draft of the DIG Audit conducted on the Worldwide Protective Services
(WPS) contract Task Order 5 (TO-5). OS has reviewed the OIG's
recommendations and provided responses below.


       Recommendation 1. DIG recommends that the Bureau of Diplomatic
Security and the Bureau of Administration, Office of Logistics Management, Office
ofAcquisitions Management (AQM), institute procedures to ensure that a needs-
based analysis is conducted and documented prior to establishing all Worldwide
Protective Services task order staffing requirements and prior to exercising task
order options.

    DS Response: DS concurs with this recommendation. OS and AQM will
ensure that a needs-based analysis is completed prior to establishing WPS task
order staffmg requirements or exercising task order options. OS understands this
recommendation to mean that the needs-based analysis will be conducted by DS,
submitted to the contracting officer's representative (COR), and placed in the
appropriate contract file for reference after completion.

     DS Comment: DS notes that as part of the preparation for a transition to a
civilian led presence in Iraq after the departure ofUSF-I, the Department of State
planned for a worst case scenario, to include being accountable for activities and
security that had once been the responsibility ofUSF-1. As reported by the
Commission on Wartime Contracting in 2010,14 functions would be lost
following U.S. military withdrawal; at least six of these areas were directly related
to the Embassy's tactical support mission.

    In preparation fo r the transition, OS began the process of reviewing mission
tempo and identifying potential reductions in personnel by specific labor
categories. The process to reduce the number of TO-OS personnel began in June
2012 and resulted in the first reduction in force modification to the contract in




                                          28

                                UNCLASSIFIED
                              UNCLASSIFIED




August 2012. In coordination with the Regional Security Office (RSO), a second
reduction in TO-05 staffing was initiated in December 2012 and was implemented
effective March 1,20 13. Moving forward, DS will work with RSOs to conduct
needs-based assessments of WPS task order requirements prior to the exercise of
the option year.

        Recommendation 2. OlG recommends that the Bureau of Diplomatic
Security and the Regional Security Office in Baghdad establish a process to ensure
that the contractor's daily movement detail reports and muster sheets are reviewed
by the onsite contracting officer 'S representative to monitor actual staff usage
against the number ofstafJpaid.

    DS Response: DS concurs with the recommendation. DS Government
Technical Monitors (GTMs) and DS CORs will continue to monitor staff usage,
daily movement details and validate muster sheets. DS will coordinate with Post
on refining how the mission tempo is recorded in the Appendix Z, so that it
represents an accurate metric of movement security missions and that the task
order provides sufficient capacity for the RSO to support the Chief of Mission's
(COM's) strategic engagement objectives. DS will brief the OIG on the revised
Appendix Z at a date not later than September 30, 2013.

   DS Comment: The September 30, 2013 timeframe allows DS to fully
implement Recommendation 2 and provides time for the summer transfer season at
Embassy Baghdad to close prior to issuing a briefing.

       Recommendation 3. OIG recommends that the Bureau of Diplomatic
Security, in coordination with the Bureau ofAdministration, Office of Logistics
Management, Office of Acquisition Management, establish a process to ensure that
Worldwide Protective Services contract staffing requirements are adjusted when
needs change during the contract performance period.

    DS Response: OS concurs with this recommendation. OS will coordinate with
AQM, DS CORs both in Washington and Iraq, and DS GTMs to establish a
process to identify potential adjustments in WPS staffing. In coordination with
Post and AQM, adjustments will be reflected in contract modifications. DS will
ensure that any adjustments maintain sufficient capacity to provide the
extraordinary levels of security required to support the COM's strategic
engagement objectives.




                                         29

                              UNCLASSIFIED
                                UNCLASSIFIED




       Recommendation 5. OIG recommends that the Bureau of Diplomatic
Security peiform a comprehensive review of its existing payment management
standard operating procedure as it relates to invoice review to ensure sufficient
review of all invoices and supporting documentation, including onsite review of
invoices, and to ensure that the Department ofState has received goods prior to
payment.

    DS Response: DS concurs with the OIG recommendation to review payment
management SOPs to ensure they are as efficient as possible. DS will provide the
oro with a briefing on the results of the comprehensive review on a date not later
than September 30, 2013.

    DS Comment: DS agrees that no invoices containing erroneous, unsupported,
or unallowable costs should be paid. During the summer of 20 12, DS initiated a
comprehensive review of the invoice process and instituted updated SOPs.




                                          30

                                UNCLASSIFIED
                           UNCLASSIFIED




Subject:   OS Comments on OIG Draft Report

Drafted:   DS/OPOIHTP, (b)(2)(b)(6)

Cleared:   DSIEX - TMahaffey (ok)
           DSIEXlMGT - JSchools (ok)
           DSIMGTIPPD - JWeston (ok)
           DSIfITP - RRentz (ok)
           DS/IP/OPO - DAllison (ok)




                                      31

                           UNCLASSIFIED
                                         UNCLASSIFIED

                                            . \ (.\'''.7.



Table 1 Unallowable Costs
     Item
    Number      Invoice Number             Cost Category                Unallowable Costs
      I         1505EOO3 T                 Trainin~                            $28.376.26
      2         lS05E012T                 Training                             $)4188 .13
      3         15051008R                 Labor                                $10.637.90
      4         15051010                  Labor                                $22.094.10
      5         1505101 2                 Labor                                $21,275 .80
      6         15051015                  Labor                                $20,457.50
                                       Total Unallowable Costs                5117,029.69


Table 2. Unsupported Costs
  Item                                                                      Unsupported
 Number       Invoice Number       Cost Catef!orv                                    Costs
     I       150SEOOIT             Trainine.                                 $61 5,122.24
    2        15051002T             Training                                    $26975.53
    3        51CFIIDOO2            Contractor Acquired Property                $11.328.83
    4        51CFl J 0001          Contractor Acquired Property              $103.050.15
    5        5ECFI1EOOI *          Contractor Acquired Property                $88.308.86
    6        5ECFII FOO3           Contractor Acouired Prooertv                $12,558.91
    7        5ECFI IGOO6·          Contractor Acouired Prooerty                $24.808.82
    8        SECFIIHOO9·           Contractor Acauired Prooertv                $27 166.88
    9        SECFIIFOO3SUP         Contractor ACQuired Property                $11,906.28
    10       5ECFII FOO5SUP        Contractor ACQuired Property                 $1,623.47
   II        5ECFIIGOO6SUP         Contractor Acquired Property                 $1,024.58
    12       5ECFIl HOO9SUPI       Contractor Acquired Prooertv                 $1,905.00
    13       5ECFIICOIO            Contractor Accuired Prooertv              $295,462.32
    14       SECFIICOIOSUP         Contractor Acauired Prooertv                $3 7,340.98
    15       5ECFI1D013            Conlractor Accuired Prooertv              $303,629.01
    16       5ECSIIG004R           Communication                               $34636.86
    17       5ECSIIH005R           Communication                                $5,544.65
    18       5ECSIIEOOI R          Communication                                $7523.06
    19       5ECSIIF002R           Communication                               $32,620.68

.                                       Total UnSuDoorted Costs             $1642537.11
  Note. These mvolces and amounts Included at least 5132,656.37 In cost-reImbursable
amounts approved without re«:ipts for purchase.




                                                        19




                                                        32

                                         UNCLASSIFIED
                                UNCLASSIFIED




ISOSIOO2T         Training Certificates Provided

SICF!IDOO2

SICFI IDOOI

SECFIIEOOI        Purchase Receipts Provided



SECF1IFOO3~~#~~~~~~~~$
SECFI!FOO3~UP
SECFI! FOOSSUP

SECF!! GOO6SUP

SEeF!! HOO9SUP!

SECFIICOIO

SECFIICO!OSUP

SECFIIDOI3

                  In country delivery receipts oot
                  available, sec note                                              isoow


                  In country delivery receipts not    sbipping and fact       Ii
                  available see note                  accepted as sufficient, OS

                                 ;
                  In COWltry deli\'ery rteeipts not                                  "as
                  available sec note                                                oow

                                               "as
                                              ;,
                                     been finn
                                   has requested




                                            33

                                UNCLASSIFIED
                                    UNCLASSIFIED


Major Contributors to This Report

Carol Gorman, Deputy Assistant Inspector General
Middle East Regional Operations
Office of Audits

James Pollard, Director
Middle East Regional Operations
Office of Audits

Kelly Moon, Audit Manager
Middle East Regional Operations
Office of Audits

Yvonne Athanasaw, Management and Program Analyst
Middle East Regional Operations
Office of Audits

Amy Lowenstein, Contractor
BCP International, LTD

Lee Taylor, Contractor
BCP International, LTD




                                            34

                                    UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
        UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
